Department of Homeland Security
   Ofﬁce of Inspector General


                 Efforts to Identify Critical 

            Infrastructure Assets and Systems





OIG-09-86                                     June 2009
                                                               Office of Inspector General

                                                               U.S. Department of Homeland Security
                                                               Washington, DC 20528




                                         June 30, 2009

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses Department of Homeland Security identification and use of critical
infrastructure asset and systems data. We based our report on interviews with relevant
agencies, direct observations, and a review of applicable documents and data.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all who contributed to the preparation of this report.



                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................5


     The Infrastructure Information Collection System Is in the Early Stages of 

     Development ..................................................................................................................6 


     The Prioritized Critical Infrastructure Lists Are the Primary Means Used to Identify 

     Critical Infrastructure.....................................................................................................9 


     The Lists are Used in Grant Formulas, but Not by DHS Law Enforcement ...............25 


     Status of DHS Reporting Requirements and Discretionary Consortium.....................31 


     Major Changes to the Sector Partnership Model Are Not Needed..............................32 


     Management Comments and OIG Analysis ................................................................32 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................39 

     Appendix B:           Management Comments to the Draft Report .......................................40 

     Appendix C:           The Survey of Protective Security Advisors........................................43 

     Appendix D:           Major Contributors to this Report........................................................46 

     Appendix E:           Report Distribution ..............................................................................47 

Table of Contents/Abbreviations 


Abbreviations
  ACAMS         Automated Critical Asset Management System
  CIKR          Critical Infrastructure/Key Resources
  CIO           Chief Information Officer
  DHS           Department of Homeland Security
  DIB           Defense Industrial Base
  EAB           Enterprise Architecture Board
  FASCAT        Food and Agriculture Sector Criticality Assessment Tool
  FEMA          Federal Emergency Management Agency
  GAO           Government Accountability Office
  HITRAC        Homeland Infrastructure Threat and Risk Analysis Center
  ICE           Immigration and Customs Enforcement
  IDW           Infrastructure Data Warehouse
  IICS          Infrastructure Information Collection System
  IP            Office of Infrastructure Protection
  IRB           Investment Review Board
  NADB          National Asset Database
  NIAC          National Infrastructure Advisory Council
  NII           National Infrastructure Index
  NIPP          National Infrastructure Protection Plan
  NISAC         National Infrastructure Simulation and Analysis Center
  NPPD          National Protection and Programs Directorate
  NSI           National Security Index
  OIG           Office of Inspector General
  PSA           Protective Security Advisor
  SHSP          State Homeland Security Program
  SSA           Sector Specific Agency
  TSA           Transportation Security Administration
  UASI          Urban Area Security Initiative
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                 This report fulfills a statutory requirement from Section 1001 of
                 the Implementing Recommendations of the 9/11 Commission Act
                 that requires the Office of Inspector General to review the
                 Department of Homeland Security’s (DHS) efforts to identify
                 critical infrastructure. Efforts to catalog the nation’s critical assets
                 and systems are important steps to satisfying the departmental
                 mission of securing the homeland. Our June 2006 report, Progress
                 in Developing the National Asset Database (OIG-06-40),
                 examined early DHS work in this area.

                 The National Protection and Programs Directorate is in the process
                 of acquiring the Infrastructure Information Collection System, a
                 replacement for the National Asset Database. Staff in the
                 directorate expressed several concerns about the acquisition
                 process. Additional interaction between these staff experts and the
                 Directorate of Management offers the possibility of greater
                 cooperation in acquiring the new system and hiring employees.

                 The primary means used to identify the nation’s most critical assets
                 and systems is the annual Prioritized Critical Infrastructure List
                 process. The department works with public and private sector
                 experts to create the two lists, which are designed to identify the
                 nation’s most critical assets and systems. The lists provide a
                 reasonable means to fulfill statutory mandates, DHS critical
                 infrastructure goals, and overall risk management activities. Public
                 and private sector experts expressed appreciation for DHS efforts
                 to work with partners throughout critical infrastructure
                 identification efforts. We determined that some changes in this
                 DHS effort would enhance efficiency, expand partnerships, and
                 gain more resources to improve the process on an ongoing basis.

                 We are making 10 recommendations to improve DHS efforts to
                 identify and catalog critical infrastructure assets and systems.




               Efforts to Identify Critical Infrastructure Assets and Systems

                                          Page 1
Background

                           DHS must work with an array of public and private sector
                           stakeholders to identify the nation’s critical infrastructure. This
                           section describes DHS asset identification efforts and the
                           partnership model established in the National Infrastructure
                           Protection Plan (NIPP), which was revised in 2009. The NIPP lists
                           DHS infrastructure protection goals.

                  Overview of Asset Identification Efforts
                           DHS is responsible for leading the national effort to identify and
                           protect critical infrastructure. The National Strategy for Homeland
                           Security specifies critical infrastructure and key resources (CIKR)
                           protection as one of four DHS significant mission goals.1 Since
                           1998, several policies and strategies have established the
                           protection of the nation’s CIKR as vital to securing the homeland.
                           According to the NIPP, one of the initial steps to protect the
                           nation’s infrastructure is to “identify assets, systems, networks, and
                           functions.”2 Asset identification is an essential preliminary step to
                           knowing the extent of the nation’s CIKR for purposes of targeting
                           grant funding and other efforts.

                           Section 1001 of the Implementing Recommendations of the 9/11
                           Commission Act of 2007 (hereinafter “The Act”) mandates that
                           DHS maintain and use a database to catalog the nation’s critical
                           infrastructure. We are required to review the department’s
                           implementation of Section 1001.3

                           DHS is required to develop a comprehensive system that catalogs
                           critical infrastructure and enhances CIKR protection.4 Previously,
                           DHS inventoried assets, systems, networks, and functions through
                           the National Asset Database (NADB). In June 2006, we reported
                           that the NADB did not distinguish assets by criticality. The
                           department countered with the assertion that the database was not
                           intended to be a list of critical assets. The divergence of opinion




1
  Homeland Security Council, National Strategy for Homeland Security, October 2007, p. 1.
2
  Department of Homeland Security, National Infrastructure Protection Plan, 2006, p. 4.
3
  Implementing Recommendations of the 9/11 Commission Act of 2007 (P.L. 110-53), § 1001.
4
  The National Strategy for the Physical Protection of Critical Infrastructures and Key Assets, February
2003, p. 23.



                        Efforts to Identify Critical Infrastructure Assets and Systems

                                                   Page 2
                          on the purpose of the NADB created confusion in Congress and
                          the media.5

                          DHS asset identification efforts must catalog systems or assets that
                          would have “a negative or debilitating effect” on the United States
                          if disrupted or attacked. The Prioritized Critical Infrastructure
                          List, another asset cataloging instrument to identify the nation’s
                          most critical assets and systems, is also required.6 DHS is
                          therefore charged to create both a general database of critical
                          infrastructure and a list of the nation’s most important assets and
                          systems. DHS must report annually to Congress regarding
                          progress and difficulties encountered in identifying and collecting
                          CIKR information.

                          DHS policy maintains that CIKR information repositories will
                          inform decision making and specific response and recovery
                          activities.7 Thus, any system to catalog national assets must
                          provide a comprehensive overview of critical infrastructure. At the
                          end of 2006, DHS discontinued operational use of the NADB. The
                          DHS Office of Infrastructure Protection (IP) is now acquiring the
                          Infrastructure Information Collection System (IICS). One
                          component of the IICS is the Infrastructure Data Warehouse
                          (IDW), which will replace the NADB. This new data system will
                          allow relevant critical infrastructure partners from federal, state,
                          local, and private entities to access various tools that house
                          infrastructure data. The information in the IDW will help DHS
                          conduct further risk analysis and meet the national data
                          management requirements in Section 1001 of the Act. Our review
                          focused on plans for the IDW and issues related to the procurement
                          of the IICS. We did not conduct a detailed review of all planned
                          components of the IICS.

                          Because the IICS is still in development, the primary DHS effort to
                          identify critical infrastructure is the annual National Critical
                          Infrastructure Prioritization Program. Delays in acquiring the IDW
                          have meant that the lists created under the Program are not yet part
                          of a national database, as the Act requires. Through the use of
                          established criteria, states and sector experts provide DHS with
                          lists of the nation’s most critical assets and systems.


5
  Congressional Research Service, Critical Infrastructures: Background, Policy, and Implementation,

updated October 10, 2008, p. 28–29. 

6
  P.L. 110-53, § 1001(a)(1)(A). 

7
  DHS, National Infrastructure Protection Plan, p. 155. 




                       Efforts to Identify Critical Infrastructure Assets and Systems

                                                  Page 3
         The Sector Partnership Model
                The elements of the nation’s CIKR are divided into 18 sectors.
                Each sector has a federal agency, known as a Sector Specific
                Agency (SSA), designated to coordinate work across the private
                sector and all levels of government. The sectors and
                corresponding SSAs are listed in Table 1.

Table 1. Sectors and the Sector Specific Agencies
 Sector                               Sector Specific Agency
 Agriculture and Food                 Department of Agriculture and Department of Health
                                      and Human Services
 Banking and Finance                  Department of the Treasury
 Chemical                             DHS, Office of Infrastructure Protection
 Commercial Facilities                DHS, Office of Infrastructure Protection
 Communications                       DHS, Office of Cyber Security and Communications
 Critical Manufacturing               DHS, Office of Infrastructure Protection
 Dams                                 DHS, Office of Infrastructure Protection
 Defense Industrial Base              Department of Defense
 Emergency Services                   DHS, Office of Infrastructure Protection
 Energy                               Department of Energy
 Government Facilities                DHS, Federal Protective Service
 Information Technology               DHS, Office of Cyber Security and Communications
 National Monuments and Icons         Department of Interior
 Nuclear                              DHS, Office of Infrastructure Protection
 Postal and Shipping                  DHS, Transportation Security Administration
 Public Health and Healthcare         Department of Health and Human Services
 Transportation                       DHS, Transportation Security Administration and
                                      Coast Guard
 Water                                Environmental Protection Agency

                DHS has created a sector partnership model designed to ensure
                communication between DHS, the SSAs, other federal agencies,
                state and local officials, and the private sector. The partners are as
                follows:

                     •    Five DHS agencies that serve as SSAs;
                     •    Seven non-DHS SSAs;
                     •    State, local, and tribal governments; and
                     •    The private sector.

                Each sector operates a Government Coordinating Council, which
                includes public sector representatives who work with DHS. Sector
                Coordinating Councils ensure that DHS receives input from asset
                owners and trade associations. The Councils assess actions taken
                to identify CIKR and improve the protected status of assets and




              Efforts to Identify Critical Infrastructure Assets and Systems

                                         Page 4
                            systems.8 Protective Security Advisors (PSAs) are DHS’s field-
                            deployed infrastructure protection experts who interact and
                            coordinate with Federal, State, local, territorial and tribal
                            organizations and the private sector to assess and enhance the
                            security of CIKR. There are currently 92 PSAs in all 50 States and
                            Puerto Rico.

                            DHS has the overall responsibility to “lead, integrate, and
                            coordinate” national critical infrastructure protection efforts.9
                            Within DHS, IP is charged to carry out this mission. To
                            accomplish this, IP must work with its CIKR partners, as described
                            in the National Strategy for Homeland Security:

                                “While the Federal Government provides overarching
                                leadership and coordination for protecting and mitigating
                                vulnerabilities of our Nation’s CIKR, all partners have
                                important roles to play.” 10

                            IP recognizes that identification and prioritization of the nation’s
                            CIKR depends on the contributions and cooperation of its public
                            and private sector stakeholders. The private sector, which owns
                            most key assets and systems, has a vital role. Each SSA has
                            unique knowledge and expertise. State, local, and tribal
                            governments are also important partners.11


Results of Review
                  The plans for the IDW and the existing National Critical Infrastructure
                  Prioritization Program are reasonable efforts to meet statutory
                  requirements for identification of the nation’s most critical infrastructure.
                  DHS, however, is in the early stages of acquiring the IDW. As a result,
                  the primary DHS effort to identify assets and systems is the annual lists of
                  the nation’s most critical infrastructure. The lists guide DHS grant
                  allocation decisions and other risk management activities. IP has shown
                  commendable interest in ongoing improvement to the list process. Our
                  recommendations focus on ways IP could improve the identification of
                  CIKR, increase partner participation, and obtain additional resources to
                  enhance asset and system identification efforts.


8
  DHS, National Infrastructure Protection Plan, chapter 4. 

9
  Homeland Security Presidential Directive 7, “Critical Infrastructure Identification, Prioritization and 

Protection,” June 17, 2004. 

10
   The Homeland Security Council, National Strategy for Homeland Security, October 2007, p. 28. 

11
   DHS, National Infrastructure Protection Plan, chapter 2.




                         Efforts to Identify Critical Infrastructure Assets and Systems

                                                    Page 5
The Infrastructure Information Collection System Is in the Early
Stages of Development
     In September 2006, DHS leadership decided to suspend use of the NADB.
     IP staff stated that the database needed a variety of dynamic functions.
     The NADB was a static list of assets that did not link to mapping or
     analytical tools, which enhance a user’s understanding of an asset and the
     effects of attacks or disruptions. As a replacement, DHS is acquiring the
     IDW, part of the IICS. The IDW will allow DHS and its CIKR partners to
     access a range of existing critical infrastructure information data sources
     more easily. DHS believes that the IDW will allow more rapid risk
     management across the infrastructure sectors, with the added advantage of
     decreased data maintenance costs and inefficiencies.

     IP staff said that IICS will provide needed enhancements. As part of the
     IICS, the IDW would provide a single virtual view of one or more
     infrastructure data sources. The static nature of the NADB platform did
     not allow for such functionality. Experts in IP said that the integration of
     various data sources will be the prominent benefit of the IDW compared to
     the NADB. The IDW will offer users more information and provide
     benefits that will include a prompt means to assess natural or intentional
     disasters. DHS staff views the IDW as a significant restructuring of DHS
     CIKR identification activities.

     DHS has identified four capability gaps in current critical infrastructure
     risk management. These gaps are the need for

        1.   Accessible and quantifiable risk-related information;
        2.   Data standards to ensure consistent data;
        3.   Common information collection and maintenance processes; and
        4.   Information fusion to enable current and complete analysis.

     The department’s May 2008 Report to Congress stated that these gaps
     restrict cross-sector and national risk analysis that use geographic data and
     other sources. The IDW is expected to diminish or eliminate these gaps.

     Because the IDW is not fully developed, the Automated Critical Asset
     Management System (ACAMS) currently contributes to critical
     infrastructure asset identification. IP staff describes ACAMS as “the most
     mature operational information collection tool” in use. ACAMS will be
     the “cornerstone” of the IICS. A growing number of states and territories
     use ACAMS to collect infrastructure information and catalog assets.
     Although we noted difference of opinion among state officials, ACAMS is
     generally seen as a helpful tool to identify assets, gain further information



          Efforts to Identify Critical Infrastructure Assets and Systems

                                     Page 6
                about important sites, and target protective measures. We were informed
                of problems with inconsistent ACAMS data submission across states. We
                view these inconsistencies as inherent to a national process that focuses on
                submissions from 56 state and territorial governments.

                Although ACAMS currently collects infrastructure information, IP
                officials have been frustrated with difficulties in hiring new employees
                and acquiring the IDW as part of the IICS. IP officials argue that the
                Directorate of Management’s oversight requirements and evolving
                guidance contributed to problems with the IICS effort. IP staff said that
                these issues impede project management and prevent mission
                accomplishment. An IP manager lamented that the “centralized planning,
                centralized execution” paradigm hinders IP’s ability to attract employees
                and efficiently procure technology.

                IP management provided timelines and other information to illustrate
                concerns related to personnel security processing and the hiring process.
                IP staff noted that hiring delays have hindered development of the IDW.
                National Protection and Programs Directorate (NPPD) components such
                as IP rely on the department’s Personnel Security Division for these
                functions. IP managers found the process frustrating and burdensome,
                from the time required to bring new staff on board to the transfer of
                security information for employees who already hold clearances. We did
                not analyze the directorate’s personnel security issues for this report.
                However, our office recently reviewed the department’s overall personnel
                security practices.12 That report included various recommendations
                designed to improve overall efficiency and help DHS components add
                staff more expeditiously.

                We received data from NPPD regarding the information technology
                acquisition process. Along with the Government Accountability Office
                (GAO), we have identified problems with the DHS acquisition function.13
                With extremely challenging and critical missions, DHS faces inherent
                procurement difficulties across varied components. The Office of
                Procurement Oversight division that covers NPPD had only 11 staff, yet
                was involved in more than 500 procurement requests in FY 2008.

                IP staff had concerns with the department’s Enterprise Architecture Board
                (EAB) and Investment Review Board (IRB). The EAB and IRB acquire
                key portions of DHS information technology. The primary purpose of the

12
  DHS OIG, The DHS Personnel Security Process, OIG-09-65, May 2009. 

13
  GAO, Department of Homeland Security: A Strategic Approach Is Needed to Better Ensure the 

Acquisition Workforce Can Meet Mission Needs, GAO-09-30, November 2008; GAO, Progress and 

Challenges in Implementing the Department’s Acquisition Oversight Plan, GAO-07-900, June 2007. 




                       Efforts to Identify Critical Infrastructure Assets and Systems

                                                  Page 7
                EAB is to ensure that component IT projects align with DHS missions and
                do not duplicate existing functions. The EAB also works to eliminate
                duplicative purchases. The IRB is composed of senior officials from DHS
                components who review major department investments.

                In a July 2004 report, we highlighted concerns with these DHS boards.14
                We determined that the EAB does not provide a venue for including
                business perspectives on IT decisions, while the IRB postponed or
                cancelled 12 of 21 meetings. The IRB included high-level membership
                with competing priorities that had no sense of urgency. GAO also has
                reported problems that continue to diminish the effectiveness of the IRB.15

                We concluded that the DHS Chief Information Officer (CIO) has been
                unable to “ensure that major IT investment reviews are conducted in a
                timely manner.”16 In September 2008, we reported that the DHS CIO is
                now “better positioned to meet the department’s IT challenges.” The
                report noted that the DHS CIO had an enhanced ability to oversee the
                investment review process. Refinements to the IRB and the applicable
                DHS Management Directive were also ongoing. Challenges remain,
                including CIO staffing shortages, limited CIO authority, and general
                acquisition review weaknesses.17

                IP managers believe that problems with DHS oversight boards have
                affected the development of the IICS. Officials in the Directorate of
                Management have recognized problems with DHS IT acquisition
                oversight and procurement limitations. However, Directorate of
                Management officials said that oversight is needed to ensure that
                components’ decisions do not adversely impact DHS missions. A recent
                GAO report on investment management recommended that DHS ensure
                that “components have established processes to manage major investments
                consistent with departmental policies.”18

                Directorate of Management staff noted that NPPD has experienced
                difficulties in its IT management, including a year-long vacancy in the
                NPPD CIO position, which was filled in October 2008. Moreover, NPPD

14
   DHS OIG, Improvements Needed to DHS’ Information Technology Management Structure, OIG-04-30, 

July 2004.

15
   GAO, Department of Homeland Security: Billions Invested in Major Programs Lack Appropriate 

Oversight, GAO-09-29, November 2008. 

16
   DHS OIG, Improvements Needed to DHS’ Information Technology Management Structure, OIG-04-30, 

July 2004.

17
   DHS OIG, Progress Made In Strengthening DHS Information Technology Management, But Challenges 

Remain, OIG-08-91, September 2008. 

18
   GAO-09-29, Department of Homeland Security: Billions Invested in Major Programs Lack Appropriate 

Oversight November 2008, p. 32. 




                      Efforts to Identify Critical Infrastructure Assets and Systems 


                                                  Page 8 

      has faced reorganizations and staffing problems. A Directorate of
      Management review of the IICS was completed in November 2007. This
      review cited significant planning, staffing, and program execution issues.
      IP officials responded that many of the deficiencies were outside the
      office’s control, but corrective actions were continuing. Based on
      information obtained from DHS enterprise architecture and procurement
      managers, we concluded that NPPD has made a good faith effort to fulfill
      acquisition process mandates.

      During fieldwork, we learned that the IP plans for the IDW are not well
      understood. The Director of Management’s procurement chief in charge
      of NPPD acquisitions had not seen the IDW referenced before we
      contacted the office. Also, the department’s security partners in the
      sectors and states have limited understanding of DHS goals for the IDW or
      how the new system will improve infrastructure risk management.
      Several sector experts were unfamiliar with the IDW concept, or first
      heard about plans for the IDW when IP managers asked SSAs to comment
      on IP’s May 2008 Report to Congress.

      The NADB has not been used as an operational system for more than
      2 years; minimal progress has been made to finalize a more dynamic
      replacement. The new NPPD CIO should make the IICS acquisition
      process a priority. Assistance from the Directorate of Management would
      facilitate the NPPD CIO’s efforts. Expanded leadership involvement
      could also explore solutions to IP’s hiring problems. The IDW has the
      potential to enhance critical infrastructure protection, one of the
      department’s strategic goals. Improved interaction between NPPD and the
      Directorate of Management is necessary to ensure that the IDW is
      procured in a way that meets departmental goals and satisfies the statutory
      requirement to catalog critical infrastructure.

      We recommend that the Under Secretary for National Protection and
      Programs and the Under Secretary for Management:

             Recommendation #1: Complete the acquisition process for the
             Infrastructure Information Collection System.

The Prioritized Critical Infrastructure Lists Are the Primary
Means Used to Identify Critical Infrastructure
             Purpose of the List Process

             The IDW is envisioned as the primary forum for information about
             infrastructure assets and systems. DHS also works to identify



           Efforts to Identify Critical Infrastructure Assets and Systems 


                                       Page 9 

  assets and systems that are deemed nationally critical through the
  National Critical Infrastructure Prioritization Program. Through
  work with states and the sectors, DHS creates the two lists of the
  most nationally significant infrastructure. These two lists are used
  for State Homeland Security Program and the Urban Area Security
  Initiative grant allocations. Additionally, the process is used to
  identify assets eligible for the Buffer Zone Protection Program
  (BZPP). This program is designed to increase security in the area
  outside a facility that can be used to conduct surveillance or launch
  an attack. Public and private sector security partners can also use
  the lists to prioritize infrastructure protection resources and
  conduct planning and coordination efforts.

  The process, which is managed by the Homeland Infrastructure
  Threat and Risk Analysis Center (HITRAC), began in 2006.
  Successful interaction with states and the infrastructure sectors is a
  vital component of the process. Criticality criteria generated by
  the sectors and states, along with IP-produced consequence-based
  criticality thresholds, identifies the nation’s most critical
  infrastructure. Because the criteria guide sector and state
  submissions of assets and systems, noncritical assets are less likely
  to be submitted. Critical infrastructure partners use the criteria to
  compile asset and systems information for each sector. Each year,
  the IP Assistant Secretary gives final approval of the lists.

  Because the Act requires that the lists be part of the larger asset
  database, IP officials said that the lists will become part of the
  IDW. The process to create the lists is logically organized, with
  DHS partners seeing ongoing improvements in DHS’ management
  of the lists. With some recommended improvements, the lists can
  provide additional support for CIKR identification, protection, and
  incident management efforts.

  List Development

  We reviewed information related to the lists for fiscal years 2006
  to 2009. Significant changes were made for the 2009 process.
  One constant is that only two lists identify the nation’s most
  critical assets and systems. These lists address the statutory
  requirement of a focus on prioritized critical infrastructure. The
  “Type 1” list includes infrastructure that if disrupted would have
  the highest consequence to the nation. A larger “Type 2” list
  includes all CIKR on the “Type 1” list and additional CIKR that if
  disrupted would have nationally significant consequences.
  According to IP officials, attacks against assets and systems on the


Efforts to Identify Critical Infrastructure Assets and Systems 


                           Page 10 

  Type 1 list could have catastrophic national consequences. Attacks
  on assets on the Type 2 list would have nationally significant
  consequences. Our field work was based partners’ impressions of
  the process prior to 2009, but we have included a description of the
  new process.

  The 2009 process includes several enhancements. First, the two
  lists of nationally critical infrastructure are now completely based
  on consequence, rather than data such as asset size or seating
  capacity. Second, the concept of “critical clusters” has been
  introduced. This change identifies groups of related infrastructure
  that could be impacted by a single hazard. A cluster could rise to
  the level of national criticality, which would lead to inclusion of
  the group on either list of prioritized critical infrastructure. Third,
  additional lists will augment risk management and response
  planning. Each of the 18 sectors will have distinct lists of critical
  infrastructure that will determine assets and systems vital to each
  sector’s national or regional missions. Individual states and
  territories may now also create specific criteria and lists of critical
  assets and systems. Both the new sector and state lists are for
  infrastructure not deemed critical enough for inclusion in the Type
  1 and Type 2 lists. Thus, assets and systems that only appear on
  state or sector lists are not part of the two lists that include
  nationally critical assets or systems.

  The 2009 process includes three phases: criteria development; a
  data call for partners to submit asset and systems and nominations
  of nationally critical infrastructure; and IP adjudication and
  reconsideration of partner list nominations. The reconsideration
  process grants partners the opportunity to question why IP made
  particular decisions regarding the exclusion of assets or systems
  that had been recommended for inclusion. Through
  reconsideration, HITRAC has shown commendable interest in
  ensuring that partners understand why decisions are made
  regarding the particular assets and systems on the lists. This
  should address a concern that state officials expressed to us
  regarding the previous process. Many states suggested to us that
  more information was needed on why IP made specific decisions
  to include to not include assets on the final lists.

  IP has made other process improvements. Apart from extending
  timelines for information requests, IP also expanded partner
  involvement in sector criteria development, and made process
  changes to the vetting of asset and systems data.



Efforts to Identify Critical Infrastructure Assets and Systems

                           Page 11
  The movement toward consequence-based criteria for nationally
  critical assets and systems is expected to improve the stability of
  the lists, which will enhance long-term risk management.

  Criticality Criteria Show Improvement, With Need for More
  Consequence Analysis

  For FY 2009, DHS moved to consequence-based criteria for the
  two lists of nationally critical infrastructure. This change was
  made in collaboration with the National Infrastructure Simulation
  and Analysis Center (NISAC). During our fieldwork, we
  compared the criticality criteria and accompanying guidance
  provided to partners for the FY 2006 to FY 2008 lists. Our
  analysis showed that sector-specific criticality criteria had been
  improving each year. In FY 2006, sector criteria were vague and
  criticality thresholds undefined. Additionally, capacity thresholds
  in some sectors fluctuated every year. With ongoing refinements,
  the criticality criteria have been better able to guide states and
  sectors in determining the most critical assets. DHS guidance for
  the process also showed improvements by increasing specificity
  and providing incident scenarios, specifying terms and definitions,
  and identifying asset and system restoration times as an element of
  criteria. All of this information helped partners understand what
  would make an asset or system rise to the level of national
  criticality. Ambiguous criteria make it difficult for state and sector
  experts to identify assets that are truly critical.

  Although criteria changes have frustrated some partners, many
  states and sectors appreciated that DHS continues to make
  improvements. State representatives were encouraged by national
  efforts and believed that DHS is trying to close the gap of
  understanding through more explicit guidance. One state
  representative said the criteria are a “moving target” but
  acknowledged that the program can improve as a result. A
  Communications Sector expert said that DHS has “gotten better”
  on the creation and the revision of criticality criteria. These
  changes will help create the state lists and lists for each of the 18
  different CIKR sectors.

  Even with these improvements, understanding differences in
  criticality across sectors is an inherent challenge. Also, some
  sector and state experts said that certain criteria are difficult to
  measure. For example, economic loss is a criterion for various
  sectors, but existing models do not make it easy to assess the
  expected level of such loss from an attack or disruption. A dam


Efforts to Identify Critical Infrastructure Assets and Systems

                           Page 12
                           safety expert also noted that states have various levels of expertise
                           in completing inundation maps, tools used to predict the outcome
                           of adverse flooding events, which is an important part of the
                           sector’s criteria.

                           HITRAC management said that certain criteria lacked specificity,
                           which was a primary reason for the move toward criteria based
                           solely on consequence in 2009. As one DHS expert noted,
                           capacity measures such as building size, bridge length, or daily
                           production are not necessarily appropriate measures of
                           consequence. DHS continues to work on more specific and
                           meaningful criteria to assist partners identify critical assets and
                           systems.

                           Criticality criteria can be enhanced through an expansion of the
                           department’s consequence analysis, which examines the effect of
                           possible terrorist attacks or natural disasters. Such work can hone
                           existing criticality criteria and create lists that are more consistent
                           across states and focused on assets and systems of the highest
                           consequence. NISAC is a primary DHS entity involved in sector
                           and cross-sector analysis. Certain sectors, states, and entities also
                           analyze consequences of terrorist attacks or disasters.

                           A prominent example of NISAC’s modeling work occurred prior
                           to Hurricane Katrina. In a 41-page report, NISAC predicted that a
                           major hurricane would cause extensive damage to New Orleans,
                           with large numbers of casualties and extended disruption of
                           regional and national critical infrastructure.19 As a result of this
                           prescient analysis, the lessons-learned report produced after
                           Hurricane Katrina recommended that DHS expand NISAC’s
                           modeling capabilities, including further work on the economic
                           consequence of disasters. More resources for such efforts were
                           vital, the report noted, because governments do not have a
                           comprehensive understanding of the interdependencies of critical
                           infrastructure. The report stressed the continued importance of
                           intergovernmental cooperation in modeling and consequence
                           analysis. Specifically, DHS was asked to share all NISAC work
                           with SSAs. Some sector experts told us that DHS can improve the
                           amount of information that the department provides regarding
                           NISAC’s current analysis of the various infrastructure sectors.20



19
     “White House Got Early Warning on Katrina,” Washington Post, January 24, 2006, p. A02.
20
     The Federal Response to Hurricane Katrina: Lessons Learned, February 2006, p. 61, 110-112.



                         Efforts to Identify Critical Infrastructure Assets and Systems

                                                    Page 13
                          Each sector’s annual reports have identified ambitious modeling
                          and consequence analysis aspirations. The Transportation Sector’s
                          report identified a need to understand how adverse events affect
                          the transportation network, because significant work remains to
                          identify assets and systems. According to Emergency Services
                          Sector officials, modeling would help position resources, enhance
                          the timeliness of first responders, and determine the effects of
                          pandemic influenza on the sector’s workforce. The identification
                          of interdependencies through consequence analysis is a common
                          theme in several sectors’ modeling plans.

                          DHS recognizes the need for greater understanding of
                          consequence. Even after the recommendation in the Katrina
                          lessons-learned report, however, NISAC funding has been subject
                          to debate between the executive and legislative branches. With
                          more consistent and predictable funding, NISAC would be able to
                          augment the DHS effort to identify critical infrastructure. Because
                          the Science & Technology Directorate and the Federal Emergency
                          Management Agency (FEMA) also engage in modeling,
                          coordination with other parts of the department would be desirable.
                          A recent National Infrastructure Advisory Council (NIAC) report
                          recommended that new modeling efforts focus on a better
                          understanding of sector interdependencies.21 This sensible
                          approach would augment the ability of DHS to see how a
                          disruption of one sector affects others. With enhanced
                          consequence analysis, coordinated with the SSAs, DHS would
                          continue to improve its criteria and enhance the government’s
                          ability to identify critical infrastructure.

                          We recommend that the Under Secretary of the National Protection
                          and Programs Directorate, in coordination with the Under
                          Secretary for the Directorate of Science & Technology and the
                          Administrator of FEMA:

                          Recommendation #2: Pursue and document additional budgetary
                          resources to support necessary infrastructure modeling and
                          consequence analysis as outlined in sectors’ annual reports.

                          Recommendation #3: Identify and empower a single senior
                          official to coordinate DHS modeling and consequence analysis to
                          ensure efficient use of resources and proper sharing of plans and
                          results with the Sector Specific Agencies.

21
   National Infrastructure Advisory Council, Critical Infrastructure Partnership Strategic Assessment,
Final Report and Recommendations, October 14, 2008, p. 39.



                        Efforts to Identify Critical Infrastructure Assets and Systems

                                                   Page 14
                             Partners Provided Suggestions on Improvements to the
                             Process

                             Creation of the annual lists is a complex effort, and a difficult task
                             for several states. Some DHS partners noted that time and resource
                             constraints can adversely affect the process. The strength of state
                             critical infrastructure programs varies across the nation, impeding
                             some partners’ ability to provide timely and comprehensive
                             information.

                             Some states and sector experts said that meeting the IP timelines is
                             challenging. IP officials have recognized this problem, as already
                             noted. We commend IP efforts to reduce partners’ burdens. A
                             process that takes places once every 2 years would be an additional
                             efficiency, because states would not need to submit asset and
                             system lists every year. According to an IP official, the lists
                             generally do not change, and the official expects the list will be
                             substantially similar year-to-year. An IP analyst noted that the
                             additional time offered by a biennial, rather than annual, process
                             would allow IP to vet the information more thoroughly. However,
                             the Act states that the department must “maintain and annually
                             update” the lists.22 A biennial process is worthy of consideration,
                             although a statutory modification would be necessary.

                             Most states and sector experts said DHS has improved the list
                             process, with comments like “the process has matured” and is
                             “getting better.” Many state experts attributed improvements in
                             the annual process to their Protective Security Advisors. PSAs
                             serve as departmental liaisons to state, local, and tribal
                             governments, as well as the private sector. Sectors commended IP
                             and HITRAC staff for their willingness to work with experts
                             outside of the department.

                             Partners suggested, however, that more collaboration is possible.
                             One area of possible improvement is the provision of additional
                             information and feedback to both states and sectors. Many states
                             and sector experts said a lot of effort goes into responding to data
                             calls. However, partners do not receive sufficient comments on
                             why some assets and systems are not included on the lists or how
                             DHS makes final list decisions. The FY 2009 process attempted to
                             address this concern through ongoing dialogue and weekly


22
     P.L. 110-53, § 1001(c)(1).



                           Efforts to Identify Critical Infrastructure Assets and Systems

                                                      Page 15
  newsletters with partners during the adjudication and
  reconsideration phase.

  Several states indicated that DHS could help protect locally critical
  infrastructure and inform decisions by sharing its decisions on
  those assets and systems on the final lists. States would be better
  able to implement security measures if they know the assets and
  systems on the two lists of the nation’s more critical infrastructure.
  Other state representatives saw no value in the data-intensive
  collection efforts. A few states further noted that more information
  has the potential to enhance their relationships with CIKR partners.
  Development of state and territory lists should increase the value
  of the annual process because partners can use the final lists for
  incident and risk management.

  One way DHS can ensure collaboration is in the development of
  the criticality criteria. The Act requires DHS to provide the
  program’s “data collection guidelines . . . to the appropriate
  homeland security official of each State.” For the new
  consequence-based process, state officials nominate assets based
  on their own criteria development process. This allows states to
  explain why particular assets are nominated as critical
  infrastructure. IP still uses national criticality criteria for the
  sectors to determine the assets or systems that will make the final
  lists.

  Historically, a limited number of states had an opportunity to
  review and provide comments on the national criteria through the
  State, Local, Tribal and Territorial Government Coordinating
  Council. Officials from only 15 states and two tribal jurisdictions
  were represented on this council. Some officials in the 15 states
  were at the local level and cannot speak for the state as a whole.
  Additionally, larger states like Illinois, Ohio, Pennsylvania, and
  Texas are not represented.

  The states and the SSAs rely on the private sector for information
  on assets and systems that meet the criteria. With the exception of
  a few regulated sectors, such as the Banking and Finance,
  Chemical, and Nuclear sectors, the private sector voluntarily
  provides information to the government. According to states and
  sector experts, some private sector partners do not understand the
  value of sharing information because the benefits of the annual list
  process are not evident. The private sector views timely
  information on specific CIKR threats as necessary, but the needed
  communication does not always take place. Several private sector


Efforts to Identify Critical Infrastructure Assets and Systems

                           Page 16
                          experts provide information to DHS, but they do not receive the
                          final lists.

                          Several factors hamper DHS’ ability to share information with its
                          CIKR partners. Although information submitted by states and
                          sector experts is unclassified, the final lists are classified Secret.
                          This presents an obstacle to stakeholders who do not have the
                          necessary clearance. Threat information from intelligence
                          agencies is also classified, which can be an impediment to
                          information sharing. NIAC noted similar problems in a cyber
                          security report. The intelligence on cyber threats to critical
                          infrastructure control systems is not often shared with the owners
                          of those systems. To address the obstacles faced by CIKR owners
                          and operators, NIAC made several recommendations.23

                          In a previous report, we noted the gap between stakeholder
                          expectations and DHS capabilities and programs in the sharing of
                          classified information.24 To provide value to partners, DHS should
                          enhance its ability to share the final lists and strategic threat
                          information concerning the nation’s critical assets and systems
                          with the private sector.

                          We recommend that the Assistant Secretary for the Office of
                          Infrastructure Protection:

                          Recommendation #4: Ensure that all states are allowed to review
                          the criticality criteria on an annual basis.

                          Recommendation #5: Develop policies that would lead to greater
                          sharing of final lists with partners and provide specific guidance to
                          partners on sharing sensitive and classified information.

                          Sectors Have Varying Levels of Concern About Cyber
                          Infrastructure

                          Electronic information and control systems are a central element of
                          many infrastructure sectors. These cyber systems direct essential
                          CIKR processes and functions. The NIPP defines cyber security as



23
   The National Infrastructure Advisory Council Convergence of Physical and Cyber Technologies and 

Related Security Management Challenges Working Group, Final Report and Recommendations by the 

Council, pp. 25–27.

24
   DHS OIG, Challenges Remain in Securing the Nation’s Cyber Infrastructure, OIG-07-48, June 2007, p. 17. 




                        Efforts to Identify Critical Infrastructure Assets and Systems

                                                   Page 17
                                   The prevention of damage to, unauthorized use of, or
                                   exploitation of, and if needed, the restoration of electronic
                                   information and communications systems and the
                                   information contained therein to assure confidentiality,
                                   integrity, and availability.25

                         The NIPP concluded that the U.S. economy and national security
                         are highly dependent upon global cyber infrastructure, which has
                         created an interconnected and interdependent global network. The
                         NIPP noted that this level of interdependence created a linkage
                         between physical and cyber elements of CIKR.

                         National progress has been made in securing the cyber component
                         of critical infrastructure operations. In a January 2007 report,
                         NIAC identified a dedicated community of individuals and
                         programs working to protect control systems for critical
                         infrastructure sectors. These “strong and committed governmental
                         efforts” are highly valuable to several sectors.26 The National
                         Cyber Security Division in NPPD is charged with reducing cyber
                         risk across the sectors. One of the division’s two strategic
                         objectives is to implement a cyber risk management program for
                         protection of critical infrastructure.

                         NPPD has a wide range of cyber risk mitigation responsibilities,
                         including national threat assessments, cross-sector analysis, and
                         coordination of security programs. SSAs add expertise to ensure
                         that security strategies and protective activities include fully
                         integrated cyber perspectives. According to the NIPP, DHS
                         databases and cataloging efforts should include appropriate
                         information on sectors’ cyber assets, systems, networks, and
                         functions. Existing documents, such as cyber roadmaps for
                         electrical and water utilities, help infrastructure operators
                         understand the nature of the cyber threat.

                         The NIPP notes that “cyber interdependence presents a unique
                         challenge for all sectors.”27 Thus, like overall CIKR identification,
                         cross-sector cyber work is inherently difficult. In our discussions
                         with public and private experts across 15 sectors, most noted the
                         importance of cyber security. However, many experts said that

25
   DHS, National Infrastructure Protection Plan, p. 109. 

26
   National Infrastructure Advisory Council Convergence of Physical and Cyber Technologies and Related 

Security Management Challenges Working Group, Final Report and Recommendations by the Council, p. 

5.

27
    DHS, National Infrastructure Protection Plan, p. 35. 




                       Efforts to Identify Critical Infrastructure Assets and Systems 


                                                  Page 18 

  more pressing concerns, such as attacks on buildings or the
  possibility of biological contamination, are a higher priority. A
  security manager for one non-DHS SSA said that the sector has no
  cyber security concerns, while others believed that attacks on asset
  control systems would not create nationally significant problems.
  Some state experts suggested that staffing limitations or the need
  for more expertise hinders their cyber asset identification.

  These issues may explain why most sectors have a limited
  emphasis on cyber criticality criteria. A criterion for the Freight
  Rail subsector suggests that states submit cyber systems that would
  create a loss of signaling apparatus and disrupt the monitoring of
  rail cars in transit. A freight rail expert told us that cyber issues are
  vital to the market viability of railroad companies. Cyber
  disruption could have devastating economic consequences. In line
  with the sector’s criteria, some freight rail signaling stations were
  submitted for the 2008 process.

  Specific cyber identification criteria for each sector would likely
  not improve cyber security overall. Many assets with cyber
  components are already identified on the lists without itemizing
  cyber systems or interdependencies. Sectors with greater concern
  about cyber security did note positive work with HITRAC on
  cyber assets, and some regulatory entities, such as the Nuclear
  Regulatory Commission, help focus asset owners on enhancing
  cyber security. As DHS expands its risk analysis and
  understanding of cross-sector dependencies, the need for specific
  cyber criteria for various sectors may appear.




Efforts to Identify Critical Infrastructure Assets and Systems 


                           Page 19 

                             Some “Systems-Based” Sectors Have Problems Identifying
                             Critical Components

                             Existing law defines critical infrastructure as “systems and assets”
                             vital to the United States.28 Infrastructure sectors that include
                             buildings and structures, such as chemical plants and nuclear
                             reactors, are considered asset-based. These sectors rely on supply
                             chains and inter-sector linkages but are centered on a single
                             facility. Conversely, sectors that have intangible assets or that
                             work across a range of facilities are systems-based. Systems-based
                             sectors have had varying levels of success with the process to
                             identify nationally critical infrastructure.

                             DHS defines a system as:29


                                “Any combination of facilities, equipment, personnel,
                                procedures, and communications integrated for a specific
                                purpose.”

                             Individual assets in a systems-based sector, such as a bank or food-
                             processing facility, are generally not seen as individually critical.
                             Table 2 provides examples of both asset- and systems-based
                             sectors.

                               Table 2. Certain asset- and systems-based sectors

                                      Asset-based sectors                    Systems-based sectors
                                           Chemical                            Agriculture and Food
                                      Commercial Facilities                   Banking and Finance
                                             Dams                                Communications
                                     Defense Industrial Base                          Energy
                                            Nuclear                          Information Technology

                             Experts suggested that other sectors, such as Emergency Services
                             and Water, are also systems based. Others can be considered
                             critical from both asset and systems perspectives. According to the
                             Transportation Sector Specific Plan, for example, transit modes
                             can be collectively evaluated as a system. Nonetheless, the sector
                             has placed great emphasis on protecting certain assets, such as
                             subway stations.



28
     42 U.S.C. § 5195c(e). 

29
     DHS, National Infrastructure Protection Plan, p. 111. 




                           Efforts to Identify Critical Infrastructure Assets and Systems 


                                                      Page 20 

                         Identifying and protecting fixed assets is not as difficult as defining
                         critical systems. Thus, DHS efforts to categorize critical
                         infrastructure have focused on assets. Since our 2007 food defense
                         report, DHS has made some progress in identifying systems,
                         including the study of vulnerabilities in interdependent sectors.30
                         Even sectors that have experienced frustration in this area have
                         noted the department’s commitment to find mutually agreeable
                         solutions. However, systems identification problems are still
                         evident, leading to frustration in certain sectors and the potential
                         for some disruption of DHS infrastructure partnerships.

                         Several of the officials we interviewed noted the difficulty in
                         identifying systems for the lists, with one official declaring that
                         DHS “ignores history” by being more concerned with fixed sites
                         than supply chains. PSAs also told us that more work in the
                         systems area is needed. Of the 59 PSAs providing an opinion, only
                         12 believed that the current effort to identify systems ranked as a 4
                         or 5 on a five-point scale, while 26 PSAs rated the effort as poor or
                         below average. PSAs commenting on the identification of systems
                         noted:

                             “I strongly believe we need to do a better job in the
                          systems based sectors (especially the agriculture sector).”

                                             “Systems based sectors are
                                           [the] weakest part of the lists.”

                            “A systems approach needs to be adopted . . . systems
                              interdependencies may well become our national
                             weakness, rather than any individual, or set of stand­
                                                 alone sites.”

                         During our fieldwork, we encountered a range of opinions
                         regarding the success of integrating the systems concept into
                         critical infrastructure protection and asset identification. The
                         Emergency Services Sector noted the difficulty of establishing a
                         systems view of its components. The Transportation Security
                         Administration (TSA) was pleased that IP recognized the systems-
                         based nature of important transit elements, such as rail systems.
                         List submissions for large subways are based on one overall
                         system, rather than individual stations. Neither TSA nor the states

30
  DHS OIG, The Department of Homeland Security’s Role in Food Defense and Critical Infrastructure
Protection, OIG-07-33, March 2007.



                      Efforts to Identify Critical Infrastructure Assets and Systems

                                                 Page 21
  submit station stops for subway systems. Although individual
  stations have been targeted in terrorist attacks, TSA experts noted
  that any point of an overall rail system could be infiltrated, making
  large transit systems, not stations themselves, nationally critical.
  TSA appreciates the flexibility that has led to the submission of
  individual rail systems for the lists. Our 2006 report on the NADB
  identified inconsistencies in state transit rail data submissions. For
  example, some states provided the name of one rail system, while
  others submitted lists of all stations. Cooperation between TSA
  and IP has ended this problem, ensuring more consistency across
  the nation’s transit rail systems and other components of the
  Transportation Sector.

  Of the sectors that continue to struggle with systems identification,
  the most difficult case has been the Agriculture and Food Sector.
  Our March 2007 food defense report documented the sector’s
  concern regarding the identification of systems. The experts we
  interviewed for this report said that the annual process continues to
  leave the sector with a much smaller number of assets than other
  sectors. These conclusions were noted in the sector’s July 2007
  annual report. The department’s 2008 list guidance for the sector
  still advised state agencies to identify only assets that, if damaged,
  destroyed, or compromised, could create the highest consequences
  on a regional or national scale. This guidance minimized systems
  identification.

  There is some merit to the department’s approach. Although one
  cow with hoof-and-mouth disease could create nationally
  significant problems, one animal cannot be seen as nationally
  critical. DHS prefers that states identify specific parts of diverse
  interstate food production systems and other sector subcomponents
  that meet the criticality criteria. HITRAC and sector experts share
  the view that identifying critical portions of the Agriculture and
  Food Sector is a major challenge. Experts we interviewed from the
  sector noted that DHS is interested in exploring solutions to this
  difficult problem. The critical clusters approach in the 2009
  process can be seen as one way to expand systems identification.

  Since our 2007 food defense report, the National Center for Food
  Protection and Defense created a new identification method. The
  Food and Agriculture Sector Criticality Assessment Tool
  (FASCAT) was developed in consultation with sector experts and
  has the support of DHS and the sector’s two SSAs. IP officials
  have noted that states using FASCAT may leverage information
  gathered through that effort. Nonetheless, the SSAs believe the


Efforts to Identify Critical Infrastructure Assets and Systems

                           Page 22
  2008 list process was difficult, which created “a mixed bag” of
  state submissions.

  After receiving more than 1,600 Agriculture and Food Sector
  submissions from 34 states and territories, DHS asked the SSAs to
  reduce the list. Even after the list decreased significantly, DHS did
  not accept the submissions for the nationally critical lists. SSA
  staff said that DHS was concerned about consistency across states
  and the level of assets submitted that did not meet the sector’s
  general criteria.

  Some states and territories submitted hundreds of items, while 22
  states and territories did not provide any Agriculture and Food
  Sector assets or systems. The SSAs have legitimate concerns that
  the result of the 2009 process will hamper state interest in
  providing food and agriculture assets and systems, if not severely
  harm the sector’s partnership model. No portion of the sector’s
  production and processing system, a highly significant part of the
  U.S. economy and a net exporter, appears on a list of nationally
  significant critical infrastructure. This is especially difficult to
  understand when the sector’s regulatory bodies hold such extensive
  data about the sector.

  We acknowledge that systems identification is complicated.
  However, DHS should work with the SSAs and the sector’s
  coordinating councils to create general criteria based on state
  production capacity and the value of food produced. The current
  criteria focus on public health or economic loss from intentional or
  natural disruptions, criteria that are difficult for states to predict.
  Although state production criteria would lack vigorous
  consequence and vulnerability components, the criteria could be
  enhanced through modeling efforts and further refinement.
  Moreover, SSA submission of data would end the problem of
  inconsistency across states and reduce the states’ burden. For
  example, SSAs can easily determine which states produce the most
  milk, beef, and other popular commodities. Using the lists to
  catalog the sector’s most productive subcomponents is necessary
  for the Agriculture and Food Sector to be suitably represented
  compared to other sectors.

  We recommend that the Assistant Secretary for the Office of
  Infrastructure Protection:

  Recommendation #6: Create criticality criteria based on existing
  state production and capacity data, which would lead the Sector


Efforts to Identify Critical Infrastructure Assets and Systems

                           Page 23
  Specific Agencies, rather than the states, to submit data for the
  lists.

  Protective Security Advisors Displayed Some Confusion About
  Their Role

  The annual list process has helped DHS and its partners to improve
  critical infrastructure protection through the identification of
  nationally critical assets. We initiated a survey of PSAs, DHS
  employees in the field who work with states and sectors. These
  experienced professionals are an important part of CIKR
  protection. Many PSAs believe that DHS has taken positive
  actions to protect CIKR. Nonetheless, some PSAs expressed a
  degree of negativity about IP’s CIKR protective efforts. Based on
  PSA comments, we did not conclude that the lists are seriously
  flawed, but the comments justify further DHS focus on the role of
  the PSAs in working with partners to develop the lists.

  Some PSAs noted that industry experts have created CIKR asset
  lists. According to some PSAs, these lists had key differences
  from the lists of nationally critical infrastructure. Several PSAs
  wrote that the criteria, although improving each year, need further
  refinement. One PSA suggested that IP should ensure that PSAs
  do more to coordinate with states on establishing submission
  parameters, while another suggested mandated coordination
  between PSAs and the public and private sector partners that
  submit data.

  Most of the PSAs who answered the question, 53 of 61 (87%),
  advocated for some private sector involvement in the list process.
  Such an enhancement could improve the accuracy of list
  submissions.

  Only a small majority, 33 of 61 (54%), believed that PSAs should
  be more involved in the process. Yet, PSAs were generally
  displeased with their ability to influence CIKR policies and
  practices. PSAs commented that more work is needed to improve
  states’ submissions and facilitate greater interaction with SSAs.
  Several noted the difficulty of explaining DHS decisions to the
  states, especially when assets submitted by states are not on the
  final lists.

  Although IP has shown continued interest in revising the process
  used to identify nationally critical infrastructure, further work to
  refine the PSA role is warranted. Specific steps in this area should


Efforts to Identify Critical Infrastructure Assets and Systems

                           Page 24
                             focus on ensuring that PSAs participate in state list submissions, as
                             well as on further coordination between PSAs and SSAs. All of
                             the state officials we interviewed praised the work of individual
                             PSAs and considered them an invaluable resource. Additional
                             work in this area would improve asset identification and the ability
                             of DHS to work with security partners.

                             We recommend that the Assistant Secretary for the Office of
                             Infrastructure Protection:

                             Recommendation #7: Expand the role of Protective Security
                             Advisors in the annual list process to enable them to provide
                             information and comments on state data submissions.

           The Lists are Used in Grant Formulas, but Not by DHS Law
           Enforcement

                             The Lists Are Used in the Allocation of Grant Funding

                             The nation must prioritize its grant funding and protective efforts
                             to target areas most in need. Data gained through the two lists of
                             nationally critical infrastructure are provided to FEMA for use in
                             two parts of the Homeland Security Grant Program: The State
                             Homeland Security Program (SHSP) and the Urban Areas Security
                             Initiative (UASI). In FY 2008, all 50 states, the District of
                             Columbia, and five territories were eligible for $861,280,000 in
                             SHSP funding. Also in FY 2008, $781,630,000 was available
                             under the UASI for the nation’s 60 most at risk urban areas. The
                             new sector and state lists of critical infrastructure are not used for
                             purposes of grant funding.

                             The SHSP and UASI funding formula is based on the department’s
                             definition of risk, which includes three elements: threat,
                             vulnerability, and consequence.31 Intelligence analysis is used to
                             create the threat component of the formula, which accounts for
                             20% of the allocations for the two programs. The vulnerability and
                             consequence portions account for the remaining 80%.

                             Four indices compose the formula’s vulnerability and consequence
                             elements, or 80% of the overall allocations. A Population Index
                             accounts for 40% of vulnerability and consequence, while an
                             Economic Index accounts for 20%. The National Infrastructure

31
     DHS, National Infrastructure Protection Plan, p. 32.



                          Efforts to Identify Critical Infrastructure Assets and Systems

                                                     Page 25
                        Index (NII) and the National Security Index (NSI) account for the
                        remaining 20% of the formula’s vulnerability and consequence
                        portion. FEMA uses list statistics to create the NII and the NSI.
                        The NII, which uses a jurisdiction’s number of nationally critical
                        assets, is 15% of the vulnerability and consequence total. The NSI,
                        which includes the number of nationally critical assets in the
                        Defense Industrial Base (DIB) Sector as one component, is 5%.32
                        Figure 1 illustrates the placement of list data in the risk formula.

                        Figure 1. Nationally Critical Asset Information and the SHSP and UASI
                        formula




                        States are required to send 80% of total SHSP and UASI funding
                        to local governments. Guidance for the 2009 grant programs
                        included six Homeland Security Grant Program national priorities
                        that were to inform state applications:

                            •	 Progress in meeting the National Preparedness Guidelines
                            •	 Protecting against improvised explosive devices
                            •	 Strengthening preparedness planning, training, and
                               exercises
                            •	 Emphasizing information-sharing capabilities
                            •	 Strengthening medical readiness
                            •	 Strengthening preventive radiological/nuclear detection
                               capabilities

                        Although these guidelines relate to critical infrastructure protection,
                        the SHSP is designed to help develop state and local preparedness
32
 GAO, Homeland Security: DHS Risk-Based Grant Methodology Is Reasonable, But Current Version’s
Measure of Vulnerability is Limited, GAO-08-852, June 2008.



                     Efforts to Identify Critical Infrastructure Assets and Systems

                                                Page 26
                           and response capabilities. UASI funds focus on regional protection
                           of the nation’s larger urban areas. A focus on improvised explosive
                           devices came from Homeland Security Presidential Directive 19,
                           “Combating Terrorist Use of Explosives in the United States.”

                           Grants Using Nationally Critical Asset Data Do Not Require
                           Direct Expenditures to Protect Those Assets

                           SHSP and UASI are designed to improve state and territorial
                           capacity to protect the nation and respond to major events. The
                           NIPP establishes that SHSP and UASI funding should address:

                                    “regionally or locally critical priority CIKR initiatives. A
                                    further prioritized combination of grant funding across
                                    various programs may be necessary to enable the
                                    protection of certain assets, systems, networks, and
                                    functions deemed to be nationally critical.”33

                           This language does not preclude the use of SHSP and UASI
                           funding to protect nationally critical infrastructure. Sending
                           funding to states based on the existence of nationally significant
                           CIKR does not mean that states will use that funding to protect or
                           aid response and recovery efforts for those assets. However,
                           current law establishes that states may use allocations from the two
                           programs for various purposes, including protecting a nationally
                           critical system or asset.34 Although national criticality need not
                           influence all state allocation decisions, federal funds are being used
                           to augment state goals. Funding that is partially based on two lists
                           of nationally critical infrastructure allows state and local officials
                           to make provincial decisions about how to allocate funds. The
                           number of nationally critical assets in a jurisdiction may or may
                           not be a good proxy for the amount of money needed for regionally
                           or locally critical priority CIKR initiatives. Although risk
                           management theory suggests that funds should “buy down” risk,
                           experts do not know how UASI and SHSP grant allocations are
                           decreasing overall risk or improving the protected status of
                           nationally critical infrastructure.35

                           The FEMA officials we interviewed said that states must provide
                           investment justifications for allocated funding. Additionally, a
                           peer review of state submissions is designed to ensure that state

33
   DHS, National Infrastructure Protection Plan, p. 102. 

34
   6 U.S.C. § 609(a)(3). 

35
   RAND, “Estimating Terrorism Risk,” 2005. 




                        Efforts to Identify Critical Infrastructure Assets and Systems

                                                   Page 27
                            funding corresponds with national or state goals. FEMA is
                            developing a cost-to-capabilities initiative to measure how grant
                            funding leads to security improvements. This information will be
                            used to target programs, fill security gaps, and connect funding to
                            DHS policy. These efforts have merit. However, existing rules
                            allow the spending of national SHSP and UASI funds based on
                            state interests. Although DHS guidelines help in funding
                            decisions, states may have a different view of risk than the
                            department.

                            Security improvements to critical assets are part of certain other
                            grant programs. For FY 2008, DHS provided states $48,575,000
                            in Buffer Zone funding for list assets.36 The equipment needed for
                            protection and resiliency is vetted against an authorized equipment
                            list, to ensure the grant money is used appropriately to mitigate
                            security gaps identified in the Buffer Zone Plans. After the vetting
                            process, DHS releases the funds. Additionally, a focus on
                            improvised explosive device prevention clearly has protective
                            value for critical infrastructure sites. However, guidance from
                            FEMA stated that grant allocations to protect against these devices
                            “should be undertaken in coordination with the statewide CIKR
                            protection program,” which could target assets that are not
                            nationally critical.

                            Under Homeland Security Presidential Directive 8, preparedness
                            grants are not designed “to support existing capacity to address
                            normal local first responder operations, but to build capacity to
                            address major events, especially terrorism.”37 Some state officials
                            noted that some jurisdictions were using funding for ongoing local
                            concerns. Direct correlation between UASI and SHSP funding and
                            nationally significant assets and systems would ensure greater
                            linkage between grant funding and national goals.

                            Although the number of assets placed on the lists affects a state’s
                            grant funding, data are not readily available to show how states use
                            UASI and SHSP funding to protect CIKR sites. The need for such
                            spending data has created frustration in SSAs that have
                            infrastructure protection programs. Agency experts informed us
                            that inefficiencies and duplication of agencies’ efforts are
                            occurring.



36
     DHS, Overview: FY 2008 Infrastructure Protection Activities, May 2008, pp. 5, 20–21.
37
     Homeland Security Presidential Directive 8, December 13, 2003, paragraph 11.



                          Efforts to Identify Critical Infrastructure Assets and Systems 


                                                     Page 28 

                        Officials from the Nuclear and Water Sectors expressed the most
                        irritation about the need for data on grant funding decisions.
                        Environmental Protection Agency experts considered it
                        embarrassing that federal partners may be allocating security
                        funding to the same projects. Security staff at the Nuclear
                        Regulatory Commission said that sectors cannot see “a connection
                        to a purchase” after states allocate DHS grant dollars. This
                        hampers the government’s ability to learn how security gaps are
                        being lessened through allocation of federal funds. The Nuclear
                        Regulatory Commission noted that because states spend SHSP and
                        UASI funds, the federal government would not have data to share
                        with the SSAs regarding spending decisions. Although DHS has
                        conducted some information sharing in this area, concern about a
                        need for dialog was not limited to federal agencies. Some state
                        interviewees lamented the incomplete dialog with SSAs on grant
                        funding issues.

                        Without better data on SHSP and UASI funding, a complete
                        assessment of risk reduction will be elusive. An expert risk
                        management forum noted that the government must “be able to
                        estimate the level of deterrence resulting from the countermeasures
                        implemented.”38 Constraints on this front led sector experts to
                        complain that even though asset data affects grant funding, “whiz­
                        bang” devices purchased throughout the country have limited
                        utility in national risk reduction. Another expert opined that grant
                        funding efforts cannot be deemed a success simply by counting the
                        number of new fire trucks.

                        Response and recovery are logical places for SHSP and UASI
                        allocations. A new objective to link funds to assets and systems on
                        the lists would better protect the nation’s most critical infrastructure.
                        FEMA should work with NPPD to develop a grant objective that
                        establishes a link between grant funds and list entries. To address
                        the concern about incomplete grant information sharing, FEMA
                        could collect data from the states on funds that were spent on
                        particular sectors, and share the data with the SSAs. Improved
                        interaction between SSAs and states would decrease the potential
                        duplication of effort and provide information on what sectors are
                        receiving funding. With knowledge about how sectors are using
                        UASI and SHSP funding, DHS would be better able to target
                        protective efforts on nationally critical infrastructure.


38
  GAO, Highlights of a GAO Forum: Strengthening the Use of Risk Management Principles in Homeland
Security, GAO-08-627SP, April 2008, p. 13.



                      Efforts to Identify Critical Infrastructure Assets and Systems 


                                                 Page 29 

  We recommend that the Administrator of FEMA, in coordination
  with the Assistant Secretary for the Office of Infrastructure
  Protection:

  Recommendation #8: Create an objective in annual grant
  guidance that links a portion of State Homeland Security Program
  and Urban Area Security Initiative funding to the protection of
  nationally critical assets and systems.

  Recommendation #9: Collect and disseminate grant expenditure
  data that inform Sector Specific Agencies about the amount of
  funds that states spend on particular sectors’ assets and systems.

  The Lists are Not Meant to Assist Law Enforcement Efforts

  DHS agencies are charged with enforcing a variety of U.S. laws.
  Immigration and Customs Enforcement (ICE) conducts operations
  against employers who hire undocumented workers. In FY 2008,
  ICE made 6,287 criminal and administrative arrests as a result of
  worksite enforcement operations. ICE intends to target critical
  infrastructure sites that may employ individuals who are not
  authorized to work in the United States. Although ICE lists
  airports, nuclear power plants, and chemical facilities as examples
  of critical infrastructure, ICE and IP do not have sufficient ongoing
  contact to help both entities achieve mutual CIKR protection goals.

  An ICE manager who deals with worksite enforcement
  investigations noted that ICE would like to target investigative
  resources on facilities deemed most vital, but ICE does not have
  access to current lists. ICE management noted that the agency
  does not interact with IP on specific CIKR sites or general areas of
  shared interest.

  HITRAC officials noted that the list process is not focused on
  aiding law enforcement. They believe that use of the lists for law
  enforcement purposes, especially actions as sensitive as
  immigration worksite operations, would seriously hinder the
  overall partnership model. HITRAC believes that some states and
  the private sector would be reluctant to participate in the process if
  it were used for immigration enforcement operations. Very clear
  rules would be required to denote the limits of information sharing
  if DHS agencies were to use the lists for investigative or other
  purposes. Nonetheless, HITRAC officials are not opposed to
  collaborating with ICE on matters of critical infrastructure



Efforts to Identify Critical Infrastructure Assets and Systems 


                           Page 30 

                               protection. We believe that such collaboration would be beneficial
                               to both HITRAC and ICE.

                               IP has concerns about the use of the nationally critical lists for
                               DHS law enforcement work. Nonetheless, an enhanced
                               partnership offers ICE and IP the ability to augment DHS critical
                               infrastructure protection objectives. Although we are not
                               recommending that the lists be shared with DHS law enforcement
                               agencies, an expanded dialog could offer mutual benefits for IP
                               and ICE.

                               We recommend that the Assistant Secretary for the Office of
                               Infrastructure Protection:

                               Recommendation #10: Confer with Immigration and Customs
                               Enforcement on the mutual goal of protecting critical infrastructure
                               and report to the Office of Inspector General on methods and
                               remaining obstacles to intra-departmental coordination and
                               information sharing on critical infrastructure protection.

           Status of DHS Reporting Requirements and Discretionary
           Consortium
                    The Act requires that DHS submit a report on efforts to identify and
                    catalog critical infrastructure.39 In its report, IP explained that the IDW
                    will house the nation’s infrastructure data. As required by the Act, IP also
                    provided a synopsis of significant challenges associated with the database
                    and the annual process to identify nationally critical infrastructure.

                    The Act included discretionary language allowing DHS to establish a
                    National Infrastructure Protection Consortium to advise “on the best way
                    to identify, generate, organize, and maintain any database or list of
                    systems and assets.”40 In addition to government experts, this group could
                    include national laboratories, academic institutions, or Centers of
                    Excellence, which are groups of experts that work with the department to
                    address various homeland security issues. A few sector experts expressed
                    interest in an additional entity to identify critical infrastructure asset and
                    systems. However, most believed that the current NIPP sector partnership
                    model would be more suitable to handle critical infrastructure asset and
                    system identification activities.



39
     P.L. 110-53, § 1001(d).
40
     P.L. 110-53, § 1001(f).



                          Efforts to Identify Critical Infrastructure Assets and Systems

                                                     Page 31
     Partners said that the existing model has made progress in building
     relationships and trust between the government and the private sector.
     One PSA said that the “relationships and processes are in place and
     becoming more effective each year.” Other sector partners argued that an
     additional commission would be redundant. PSAs were divided on
     establishing the Consortium, 31 suggested its adoption while 30 were
     opposed.

Major Changes to the Sector Partnership Model Are Not Needed
     Experts who had concerns about some DHS policies and actions have
     noted ongoing improvement in their work with the department. DHS
     continues to search for ways to improve the partnership model. Further
     improvements can be made, but we are pleased that infrastructure sectors
     have seen a growing DHS commitment. Major changes to the sector
     partnership model are not necessary. Revisions to the model must respect
     the advancements DHS has made. Through our continuing examination of
     DHS work with other sectors, departmental acquisition practices, and
     related areas, we will continue to evaluate efforts to identify and protect
     critical infrastructure, a vital component of the DHS mission.

Management Comments and OIG Analysis
     DHS consolidated responses from NPPD, FEMA, and ICE to provide
     written comments on our draft report. We evaluated the comments and
     have made changes where we deemed appropriate. DHS concurred with 8
     of 10 recommendations. Below is a summary of the consolidated
     comments and our analysis. The department’s response is included as
     Appendix B.

     Recommendation #1: Complete the acquisition process for the
     Infrastructure Information Collection System.

     Management Comments to Recommendation #1

     The department concurred with our recommendation. IP will continue to
     work with the Under Secretary for Management to acquire the
     Infrastructure Information Collection System. The system is viewed as an
     improved approach to collecting and maintaining reliable information on
     the nation’s infrastructure.




          Efforts to Identify Critical Infrastructure Assets and Systems

                                     Page 32
OIG Analysis

We consider the department’s reply responsive to the recommendation.
We will require updates on the IICS acquisition efforts. This information
should include challenges faced in completing the acquisition. The
recommendation is resolved and open.

Recommendation #2: Pursue and document additional budgetary
resources to support necessary infrastructure modeling and consequence
analysis as outlined in sectors’ annual reports.

Management Comments to Recommendation #2

The department concurred with our recommendation. Current funding
levels allow DHS only to support HITRAC requests and the maintenance
of existing NISAC capabilities, although DHS sees the need for expanded
capabilities to fully serve the NIPP partnership model. A necessary first
step before pursuing additional resources will be to identify the universe
of consequence analysis needs across DHS.

OIG Analysis

We consider the department’s reply responsive to the recommendation.
The single DHS contact assigned under Recommendation #3 should
ensure coordination of the effort to acquire additional consequence
analysis resources across various agencies. Expansion of the department’s
capabilities in this area is central to improving analysis of
interdependencies across the 18 critical infrastructure sectors. We will
require updates on the department’s efforts to identify its scope of
capability in infrastructure modeling and consequence analysis and the
resulting actions to document resources dedicated to such efforts. This
recommendation remains resolved and open.

Recommendation #3: Identify and empower a single senior official to
coordinate DHS modeling and consequence analysis to ensure efficient
use of resources and proper sharing of plans and results with the Sector
Specific Agencies.

Management Comments to Recommendation #3

DHS concurred with our recommendation. The response focused on a
need for coordination between a range of components. This would ensure
that a department-wide perspective, not just that of any one component,
will drive national modeling and consequence analysis. An Executive
Steering Committee, composed of various DHS stakeholders, would


     Efforts to Identify Critical Infrastructure Assets and Systems

                                Page 33
ensure the necessary coordination. Such an entity would capture the
perspective of various DHS stakeholders.

OIG Analysis

We consider the department’s reply responsive to the recommendation.
DHS has commendable plans in this area. Input of various DHS
components will be necessary to bring maximum efficiency to this
important effort. When fully coordinated, modeling and consequence
analysis will improve DHS efforts to identify each sector’s most critical
infrastructure. The Executive Steering Committee should bring an
important inter-component view to this effort. We will require updates on
the department’s plans as outlined in its response. This recommendation
remains resolved and open.

Recommendation #4: Ensure that all states are allowed to review the
criticality criteria on an annual basis.

Management Comments to Recommendation #4

The department concurred, noting that the FY 2009 process addresses our
recommendation. Revisions to the process for FY 2009 granted states an
opportunity to comment on the existing consequence-based criteria. Also,
states and territories are able to develop unique criticality criteria for lists
of critical infrastructure in their jurisdictions.

OIG Analysis

IP actions for the FY 2009 process are responsive to the recommendation.
Because the intent of state involvement in annual criteria found in the
Implementing Recommendations of the 9/11 Commission Act of 2007 has
been addressed, we consider this recommendation resolved and closed.
No further action is required.

Recommendation #5: Develop policies that would lead to greater sharing
of final lists with partners and provide specific guidance to partners on
sharing sensitive and classified information.

Management Comments to Recommendation #5

The department concurred with our recommendation.




     Efforts to Identify Critical Infrastructure Assets and Systems

                                Page 34
OIG Analysis

While the department has concurred, there was no indication in its
response on what actions will be taken to address this recommendation.
We understand that PSAs and other DHS staff continue to work with
states on sharing sensitive information. This recommendation will remain
resolved and open until the department provides further information on
how it will address greater sharing of lists.

Recommendation #6: Create criticality criteria based on existing state
production and capacity data, which would lead the Sector Specific
Agencies, rather than the states, to submit data for the lists.

Management Comments to Recommendation #6

The department did not concur with this recommendation. Use of federal
agencies’ capacity data is seen as a step back from the consequence-based
focus that is now used to identify the critical assets and systems.
FASCAT, adopted through a collaborative process with the sector, will
continue to guide identification efforts. DHS argued that states are the
best entities to identify the sector’s most critical assets and systems.

OIG Analysis

The department’s response is true to the intent of our recommendation,
which was based on a concern about the Food and Agriculture Sector’s
inability to be represented in the annual list process. Use of capacity data
was one way to rectify this problem. Although FASCAT has support from
sector experts, the 2008 process did not satisfy the sector’s two SSAs.
Nonetheless, IP’s focus on continually improving the systems
identification effort is a positive sign. If fully developed to its potential,
FASCAT can lead to greater sector representation on the lists. Thus, we
consider this recommendation resolved and open, pending data and further
updates on progress made to integrate the sector’s most critical systems
into the process.

Recommendation #7: Expand the role of Protective Security Advisors in
the annual list process to enable them to provide information and
comments on state data submissions.

Management Comments to Recommendation #7

DHS concurred with our recommendation to expand the PSA role in the
process.



     Efforts to Identify Critical Infrastructure Assets and Systems

                                Page 35
OIG Analysis

The department concurred with our recommendation, but no additional
detail was provided beyond noting that PSA involvement was expanded in
FY 2009. HITRAC FY 2009 guidance notes a role for PSAs in
nominating submissions for the Emergency Services Sector. However,
there is no indication of further PSA roles in the guidance. Additional
information is needed on how the PSA role has been expanded. This
recommendation is resolved and open.

Recommendation #8: Create an objective in annual grant guidance that
links a portion of State Homeland Security Program and Urban Area
Security Initiative funding to the protection of nationally critical assets and
systems.

Management Comments to Recommendation #8

The department did not concur with our recommendation. DHS argued
that the Buffer Zone Protection Program fulfills the linkage our
recommendation envisions. In its response, the department noted that
BZPP provides $50 million annually to local law enforcement and public
safety agencies to address CIKR security gaps for nationally critical
assets.

OIG Analysis

We reaffirm our recommendation. While BZPP grants are designed to
increase the protection of nationally critical assets and systems, the
funding available for this program has been significantly less than funds
disbursed for SHSP and UASI grants. In FY 2008 alone, DHS provided
over $861 million SHSP and $781 million UASI funds to states.

FEMA’s strategic plan indicates that grants are important resources to
influence actions and develop integrated and comprehensive capabilities
that will achieve national objectives. The agency specifically notes that it
will promote the protection of critical infrastructure to avoid major
disruption to commerce or significant loss of life. FEMA will also work
to ensure that “capabilities for all hazards are strengthened and based
soundly on a joint analysis of risk . . .” Focusing funding on nationally
critical assets and systems, rather than infrastructure deemed important
just at the state level, most obviously fits into FEMA’s critical
infrastructure protection goals. Because the process identifies the most
nationally critical infrastructure, grant programs receiving funds partially
based on list entries should include an objective to protect these assets.



     Efforts to Identify Critical Infrastructure Assets and Systems

                                Page 36
Protection of assets identified on the lists is the best way to maximize
investments.

Recognizing that not all assets and systems are equally important across
the 18 sectors, DHS expends a great deal of effort annually to identify
nationally critical assets. DHS grants are an important tool used to focus
federal resources on the nation’s highest CIKR priorities. Since a portion
of SHSP and UASI grants is calculated using list data, a portion of the
funds should be directly linked to the protection of nationally critical
assets and systems. Some funds may still be used for states to protect
assets and systems that are critical only on the local level. Our
recommendation seeks to establish the linkage between a portion of SHSP
and UASI funding to protection of nationally critical assets and systems
through an objective in grant guidelines. Other approaches could meet the
intent of our recommendation, such as channeling the portions of SHSP
and UASI funds directly tied to the lists to grant programs like the BZPP.
This recommendation remains unresolved and open.

Recommendation #9: Collect and disseminate grant expenditure data
that inform Sector Specific Agencies about the amount of funds that states
spend on particular sectors’ assets and systems.

Management Comments to Recommendation #9

The department concurred with our recommendation. Through
consultations with IP, FEMA will determine how grant reporting systems
can be used to inform SSAs on how funding has been used at the state and
local level.

OIG Analysis

We consider the department’s reply responsive to the recommendation.
Once data is gathered DHS will be able to determine the level of state
funding tied directly to national goals, which is in line with FEMA’s
strategic plan. This will also help DHS work with SSAs to avoid duplicate
security spending. We will require updates regarding the results of the
FEMA-IP discussions on reporting states’ grant expenditures to the Sector
Specific Agencies. This recommendation is resolved and open.

Recommendation #10: Confer with Immigration and Customs
Enforcement on the mutual goal of protecting critical infrastructure and
report to the Office of Inspector General on methods and remaining
obstacles to intra-departmental coordination and information sharing on
critical infrastructure protection.



     Efforts to Identify Critical Infrastructure Assets and Systems

                                Page 37
Management Comments to Recommendation #10

The department concurred with our recommendation. Outside of the
formal comment process, some concern still exists regarding the potential
impact of sharing list entries with law enforcement.

OIG Analysis

We consider the department’s reply responsive to the recommendation.
As stated in our report, the recommendation was based on the need for
greater consultation between IP and ICE. This interaction does not require
that IP share the lists with ICE or other law enforcement entities. We will
require reports on the results of NPPD discussions with ICE regarding
methods and remaining obstacles to intra-departmental coordination and
information sharing on critical infrastructure protection. This
recommendation is resolved and open.




     Efforts to Identify Critical Infrastructure Assets and Systems 


                                Page 38 

Appendix A
Purpose, Scope, and Methodology

                   Section 1001 of the Implementing Recommendations of the 9/11
                   Commission Act of 2007 (P.L. 110-53) required our office to
                   review how DHS identifies and catalogs the nation’s critical
                   infrastructure. We examined a wide range of general information
                   about each of the critical infrastructure sectors. We reviewed
                   statutes and policies related to CIKR protection, as well as risk
                   management documents. We did not evaluate the exact points
                   where problems in NPPD or the Directorate of Management
                   adversely affected the development of the IICS.

                   We conducted 53 interviews, including discussions with 15 state
                   homeland security offices and 31 experts representing 15 of the 18
                   infrastructure sectors. We interviewed DHS branch chiefs,
                   members of the Government and Sector Coordinating Councils,
                   and other individuals with expertise in critical infrastructure
                   protection policy. Additionally, we attended the 2008 Critical
                   Infrastructure Protection Congress.

                   To gain the perspective of PSAs, we created an online survey that
                   was distributed to 75 PSAs. We received 63 responses, a response
                   rate of 84%. Fifty-one of the 63 respondents, or 81%, had been
                   PSAs for more than 2 years. Survey questions dealt with PSA
                   perspectives on asset identification work and the overall risk
                   management process. Results of the survey are discussed
                   throughout the report; the survey appears in Appendix C.

                   We conducted our review between July and October 2008 under
                   the authority of the Inspector General Act of 1978, as amended,
                   and according to the Quality Standards for Inspections issued by
                   President’s Council on Integrity and Efficiency.




                 Efforts to Identify Critical Infrastructure Assets and Systems 


                                            Page 39 

Appendix B
Management Comments to the Draft Report




                Efforts to Identify Critical Infrastructure Assets and Systems 


                                           Page 40 

Appendix B
Management Comments to the Draft Report




                Efforts to Identify Critical Infrastructure Assets and Systems 


                                           Page 41 

Appendix B
Management Comments to the Draft Report




                Efforts to Identify Critical Infrastructure Assets and Systems 


                                           Page 42 

Appendix C
The Survey of Protective Security Advisors


Question 1: How long have you been a PSA?

              Less than 90 days                                                       1
              3 to 6 months                                                           0
              More than 6 but less than 12 months                                     1
              1 to 2 years                                                           10
              More than 2 years                                                      51

Question 2: Regarding the annual List process, how do you judge the level of your
involvement in vetting the information submitted by your state(s) to the Office of
Infrastructure Protection?

              I do not need to be more involved in helping states
              create asset lists                                                     28

              IP should ensure that I am more involved in helping
              states create asset lists                                              33

Question 3: Which statement below best expresses your view on the preferred level of
private sector involvement in the vetting of list submissions and the review of the
sectors’ criticality criteria?

              The private sector does not need to be more involved in
              the vetting of assets and the review of criteria                        8

              Some additional private sector involvement in these
              areas would be useful                                                  32

              A much greater level of private sector involvement is
              necessary in these areas                                               21

Question 4: Do states currently have sufficient opportunity to suggest revisions to the
criticality criteria that IP provides to help guide list submissions?

              Yes                                                                    21
              No                                                                     30
              I don’t have an opinion                                                11




                    Efforts to Identify Critical Infrastructure Assets and Systems

                                               Page 43
Appendix C
The Survey of Protective Security Advisors

Question 5: Based on the choices below, what statement best reflects your view of the
completeness of the data that states submit for purposes of populating the CIKR lists?
              States are able to submit very complete data             13

              If there are problems with incomplete list submissions,
              these concerns are minor and are not a long-term issue                 17

              IP needs to take significant steps to ensure that states
              are submitting more complete list submissions                          25

              I don’t have an opinion on this matter                                 6

Question 6: On a scale of 1 (poor) to 5 (excellent), how do you rate the value and
completeness of the current list criticality guidance provided by IP to states?

              1                                                                       5
              2                                                                      15
              3                                                                      15
              4                                                                      20
              5                                                                       3

Question 7: On a scale of 1 (poor) to 5 (excellent), how well does the current process
inform and improve overall risk management (grant funding, site visits, security
improvements, etc.)

              1                                                                       4
              2                                                                      14
              3                                                                      22
              4                                                                      14
              5                                                                       0

Question 8: On a scale of 1 (poor) to 5 (excellent), how do you rate the current efforts
to ensure that “systems-based sectors” (e.g., food/agriculture, energy, banking/finance)
are represented in the lists, in addition to sectors based more on fixed assets (e.g.
nuclear, commercial facilities, dams)?

              1                                                                       7
              2                                                                      19
              3                                                                      21
              4                                                                       8
              5                                                                       4

Question 9: Section 1001 of the 9/11 Commission Act allows, but does not require,
DHS to establish a National Infrastructure Protection Consortium, which may advise



                    Efforts to Identify Critical Infrastructure Assets and Systems

                                               Page 44
Appendix C
The Survey of Protective Security Advisors

DHS on “the best way to identify, generate, organize, and maintain any database or list
of systems and assets” created by DHS. Do you believe such a consortium would be
beneficial, or do you believe current relationships, committees, and processes are
sufficient?

              The Consortium mentioned in the Act should be
              established because it could augment the work of
              identifying CIKR assets and systems                                   31

              The Consortium is not needed because existing
              relationships and processes are sufficient in identifying
              CIKR assets and systems                                   30




                   Efforts to Identify Critical Infrastructure Assets and Systems

                                              Page 45
Appendix D
Major Contributors to this Report


                    Douglas Ellice, Chief Inspector, Office of Inspections

                    Darin Wipperman, Senior Inspector, Office of Inspections

                    Kristine Odiña, Inspector, Office of Inspections




                  Efforts to Identify Critical Infrastructure Assets and Systems

                                             Page 46
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary, National Protection and Programs Directorate
                      National Protection and Programs Directorate Liaison
                      Office of Infrastructure Protection Liaison
                      Chief Security Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                  Efforts to Identify Critical Infrastructure Assets and Systems 


                                             Page 47 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
